        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Saratoga County Economic
Opportunity Council, Inc. –
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-12-05                     January 2012
                                 Department of Energy
                                   Washington, DC 20585
                                        January 20, 2012


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY




FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Saratoga County Economic
                         Opportunity Council, Inc. − Weatherization Assistance Program Funds
                         Provided by the American Recovery and Reinvestment Act of 2009"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of Saratoga County Economic
Opportunity Council's (SARA) implementation of the Weatherization Assistance Program
(Weatherization Program). The Office of Inspector General (OIG) contracted with an
independent certified public accounting firm, Otis & Associates, PC (Otis), to express an opinion
on SARA's compliance with Federal and State laws, regulations and program guidelines
applicable to the Weatherization Program. SARA, located in Saratoga Springs, New York, is a
sub-recipient of the Department of Energy's (Department) American Recovery and Reinvestment
Act of 2009 (Recovery Act) Weatherization funding for the State of New York.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of New York received $394 million in
Weatherization Program Recovery Act grant funding, of which $6.89 million was allocated to
SARA. The State of New York's Division of Housing and Community Renewal was responsible
for administering Weatherization Program grants, including funds provided to SARA.

OBSERVATIONS AND CONCLUSIONS

Otis expressed the opinion that, except for the weaknesses described in its report, SARA
complied in all material respects with the requirements and guidelines relative to the
Weatherization Program for the period July 1, 2009 to December 31, 2010. Specifically, the
examination found that:

   •   Documentation supporting the evaluation of subcontractors was not available from
       SARA;

   •   Purchases made did not comply with the State of New York's and SARA's policies and
       procedures;
   •   A lack of adequate segregation of duties existed in Weatherization Program
       administration;

   •   Adequate records were not maintained by SARA to support the quarterly reports, as
       required by the Weatherization Program;

   •   Cash advances were not deposited in an interest bearing account, as required;

   •   A cash advance received by SARA for the Recovery Act Weatherization Program was
       not property recorded in the accounting system; and,

   •   Vehicle and equipment usage, maintenance, and repair records were not maintained by
       SARA.

The report makes recommendations to SARA to improve the administration of its
Weatherization Program. SARA provided responses that expressed disagreement with most of
the findings, and/or their associated finding classifications. As a result, SARA provided
additional supporting documentation for audit consideration. Otis reviewed the additional
supporting documentation provided by SARA and made revisions to specific findings, and/or
finding classifications as they deemed appropriate. It is important to note that finding
classifications – Material Weakness, Significant Deficiency, and Advisory Comment – are based
on auditor judgment and the associated risk or impact in the audit area.

State of New York officials provided responses that indicated SARA would provide additional
supporting documentation, as discussed above, to clarify instances of disagreement. Further,
New York officials concurred with several of the audit findings and indicated that SARA had
opportunities to improve internal controls.

RECOMMENDATION

As part of its responsibilities for managing the Weatherization Program, we recommend the
Acting Assistant Secretary for Energy Efficiency and Renewable Energy:

    1. Ensure appropriate action is taken by the State of New York to improve administration
       of Recovery Act Weatherization Program funds at Saratoga County Economic
       Opportunity Council, Inc.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

We received comments on an official draft report from the Deputy Assistant Secretary for
Energy Efficiency and Renewable Energy stating that SARA will be asked to make a number of
improvements designed to resolve the identified issues. Additionally, the Department's
Project Officer and/or Contract Specialist will monitor the progress of SARA during the
quarterly review of the State and follow-up will continue until all recommendations have been
implemented.

The Department's comments are responsive to our recommendation.
                                             2
EXAMINATION-LEVEL REVIEW

Otis conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of SARA's policies
and procedures, and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Otis did not comply, in all material
respects, with the attestation requirements. Otis is responsible for the attached report dated
December 12, 2011, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                3
                                                       Attachment



 Report on Examination Level Attestation Engagement

                         Of

 Saratoga County Economic Opportunity Council, Inc.
Recovery Act Weatherization Assistance Program Funds




    Performed for the U.S. Department of Energy,
            Office of Inspector General

                       Under

          Contract Number: DE-IG0000018
           Work Order Number: 2010-06


                         By


               Otis and Associates, PC


                  January 12, 2012
                                                                                                       Attachment (continued)


                                                    Table of Contents

Section                                                                                                                    Page

I.    Independent Accountants' Report ............................................................................1

II.   Background. .............................................................................................................2

III   Classification of Findings ........................................................................................4

IV.   Summary of Findings ...............................................................................................5

V.    Schedule of Findings................................................................................................6

VI.   Grantee's Response (Full Text) ..............................................................................15
                                                                                       Attachment (continued)




____________________      ________________________________________________________________________________________



                            INDEPENDENT ACCOUNTANTS' REPORT

To: Inspector General
    U.S. Department of Energy

We have examined Saratoga County Economic Opportunity Council, Inc.'s compliance with
Federal and State laws and regulations, and guidelines applicable to the Weatherization
Assistance Program funded by the American Recovery and Reinvestment Act of 2009. Saratoga
County Economic Opportunity Council, Inc., is responsible for operating the Weatherization
Assistance Program in compliance with these laws and regulations, and Program guidelines. Our
responsibility is to express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the Comptroller General of the United
States; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant American Recovery and Reinvestment Act of 2009 Weatherization
Assistance Program guidelines; Federal and State laws and regulations; and performing such
other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion.

Because of the inherent limitations in any internal control structure or financial management
system, noncompliance due to error or fraud may occur and not be detected. Also, projections of
any evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions, or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section V of this report, Saratoga County
Economic Opportunity Council, Inc., complied, in all material respects, with the aforementioned
requirements and guidelines, relative to the Weatherization Assistance Program funded by the
American Recovery and Reinvestment Act of 2009 for the period July 1, 2009 through
December 31, 2010.


Otis and Associates, PC
Takoma Park, MD

February 25, 2011
__________________________________________________      __________________________________________________________




                                                         1
                                                                         Attachment (continued)


                               SECTION II - BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Act authorizes funding to various economic sectors and U.S. Federal
departments. The Weatherization Assistance Program (Weatherization Program), under the U.S.
Department of Energy (Department), received $5 billion of funding to achieve the purposes set
forth in the Act, including the preservation and creation of jobs, promotion of economic recovery
and reduction in energy consumption.

The Department's Weatherization Program objective is to increase the energy efficiency of
dwellings owned or occupied by low-income persons, reduce their total expenditures on energy,
and improve their health and safety. The Department has a special interest in addressing these
needs for low-income persons, who are particularly vulnerable, such as the elderly, disabled
persons, and families with children, as well as those with high energy usage and high energy
burdens. The Weatherization Program is a categorical formula grant program administered by
the Department, under a regulatory framework laid out in 10 CFR Part 440, Weatherization
Assistance for Low-Income Persons. The Recovery Act made significant changes to the grant
program administered by the Department. For example, the average per unit cost of
weatherizing a home/unit was increased from $2,500 under the program to $6,500 under the
Recovery Act.

The Department's Office of Inspector General (OIG) contracted with Otis and Associates, PC to
perform an Examination Level Attestation engagement on the Recovery Act Weatherization
Program services provided by the State of New York's sub-grantees. Saratoga County Economic
Opportunity Council, Inc., (SARA) is one of four sub-grantees selected for review by the
Department's OIG.

Under the Recovery Act, the State of New York's Division of Housing and Community Renewal
(DHCR) received an allocation of approximately $394 million from the Department, for the
Weatherization Program. DHCR then allocated about $6.9 million of this amount to SARA.

SARA is a not-for-profit organization, registered with State of New York, and employs 133 full-
time and 30 part-time employees. SARA was incorporated in 1973; and in 1980, was officially
recognized as the Community Action Agency for Saratoga County. The organization is
governed by a board of directors, which represents the larger community, and consists of local
businesses, and government and low-income individuals. The State of New York originally
awarded SARA a Weatherization Program contract in the 1970s for Saratoga County, and, in
1998, added the adjoining Schenectady County.

According to the contract with the State of New York, SARA is required to weatherize a total of
982 homes/units between July 1, 2009 and September 30, 2011 under the Recovery Act
Weatherization Program. SARA allocated all Recovery Act Weatherization Program funds
received during the period covered by our examination, to weatherizing only multi-family units.
As of December 31, 2010, SARA had weatherized a total of 322 units in 63 buildings at three
apartment complexes, managed by the Schenectady Municipal Housing Authority, at a total




                                                2
                                                                       Attachment (continued)


Program cost of $1,417,293. Of the $1,417,293 of total Program costs incurred by SARA as of
December 31, 2010, $1,226,446 represents Weatherization Program costs incurred and reported
as subcontractors' direct material and labor costs for the multi-unit buildings.

The following tables summarize the Weatherization Program's financial data:

PROGRAM FUNDS ALLOCATED TO SARA BY STATE OF NEW YORK:

                                       Production
 Contract            Amount            Goal              Completed
 C092261              $ 3,169,279      422
 Amendment 1          $ 3,730,000      560
               Total  $ 6,899,279      982               322

PROGRAM COSTS INCURRED BY SARA AS OF DECEMBER 31, 2010

Expense Category                                       Amount
Direct Material                                   $ 650,745
Direct labor                                      $ 602,828
Program Support                                   $     45,605
Liability Insurance                               $         60
Financial Audit                                   $      1,608
Training and Technical Assistance                 $      4,711
Administration                                    $     12,661
Capital Purchase                                  $     99,075
Total                                              $ 1,417,293

PROGRAM FUNDS RECEIVED BY SARA AS OF DECEMBER 31, 2010

Fund Description                             Amount
Initial Advance                           $ 792,320
Monthly Cost reimbursements               $ 1,433,098
    Total                                 $ 2,225,418




                                              3
                                                                          Attachment (continued)


                     SECTION III - CLASSIFICATION OF FINDINGS

DEFINITIONS

Findings are classified in three categories – Material Weaknesses, Significant Deficiencies, or
Advisory Comments, as defined below.

Material Weakness

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the subject matter will
not be prevented or detected.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
could adversely affect SARA's ability to initiate, authorize, record, process, or report data
reliably, in accordance with the applicable criteria or framework, such that there is more than a
remote likelihood that a misstatement of the subject matter that is more than inconsequential will
not be prevented or detected.

Advisory Comment

An advisory comment represents a control deficiency that is not significant enough to adversely
affect SARA's ability to record, process, summarize, and report data reliably.




                                                4
                                                                       Attachment (continued)



                       SECTION IV - SUMMARY OF FINDINGS


Finding 1:   Documentation supporting the evaluation of subcontractors was not available -
             Significant Deficiency

Finding 2:   Purchases made did not comply with the State of New York's and Sub-grantee's
             policies and procedures - Significant Deficiency

Finding 3:   Lack of adequate segregation of duties in Program administration - Significant
             Deficiency

Finding 4:   Adequate records were not maintained by the Sub-grantee to support
             the quarterly reports required by the Program - Significant Deficiency

Finding 5:   Non-interest-bearing account was maintained for Recovery funds - Significant
             Deficiency

Finding 6:   Cash advance received for the Recovery Act Weatherization Program was not
             properly recorded in the accounting system - Advisory Comment

Finding 7:   Vehicle and equipment usage, maintenance, and repair records were not
             maintained - Advisory Comment




                                              5
                                                                                Attachment (continued)


                           SECTION V – SCHEDULE OF FINDINGS

Finding 1:      Documentation supporting the evaluation of subcontractors was not
                available - Significant Deficiency

Our review found that some required minimum procurement information such as the criteria for
evaluation of subcontractor proposals and documentation of evaluation of the proposals was
neither maintained in the contract award files nor available from SARA. More specifically,
SARA could not produce information to support the evaluation criteria or methodology for
selecting the subcontractors that were awarded the weatherization work totaling approximately
$1,226,446. According to the New York State Weatherization Assistance Program Policy and
Procedures Manual, when a request for proposals (RFP) is used for procuring Weatherization
services, the minimum acceptable documentation must include: a copy of the RFP that was
issued; a statement of how firms to be solicited were identified; a list of firms solicited; a copy of
any newspaper advertisements used; each proposal that was received; the criteria for evaluation
of the proposals; and, documentation of evaluation of the proposals. This New York Manual
also states that the purpose of the evaluation process is to ensure that the Weatherization services
are performed by the lowest responsible bidder. A responsible bidder is defined as one likely to
do a faithful, conscientious job and to promptly and accurately fulfill the contract. The next step
is to establish that the bid is responsible – whether the bid is qualified regarding general
provisions, specifications, price, delivery schedule and other essential requirements. The low bid
is determined based on the price and other applicable cost factors such as capacity of the bidder
and time constraints on service delivery. While we noted that DHCR #27, Materials Bidding
Summary Form, was completed by SARA for each offer and included in the bid packages
showing that bids were received, there was no information in the file to verify that a criteria was
in place to evaluate the bidders or that the bidders had been determined to be responsible.

SARA's management considered that the completion of Form DHCR #27 was adequate
documentation to support the selection of the subcontractors for contract award since it provided
the names of the firms bidding and the bid quotations for materials and labor.

As a result of the condition noted above, SARA could not demonstrate that the lowest
responsible bidder had been determined.

Recommendation:
•   We recommend that SARA comply with the State of New York's requirements for
    acquisition of goods and services and maintaining records that adequately support
    procurement decisions made.

Management Comments and Auditors' Analysis
SARA's management strongly disagreed with the finding, and stated that the subcontractors used a
form designed by the State of New York to record and submit their bids, which included the name of
the subcontractors, the labor and material cost per task or technique and the building and phase number, if
applicable. SARA's management also stated that the procedures followed were in accordance with the


                                                    6
                                                                             Attachment (continued)


State of New York's Weatherization Assistance Program Policy and Procedures Manual, and that
their documents show that both projects were broadly solicited and bid and had adequate
documentation supporting the selection of the bid winner. They further stated that the rationale for
selecting subcontractors was the lowest responsible bid, as per the State of New York's
Weatherization Assistance Program Policy and Procedures Manual.

Based on the SARA response, we revised the finding to reflect that SARA did not maintain the
criteria for evaluation of the proposals deemed to be responsible, and documentation of
evaluation of the proposals, in the contract files as required by the State of New York's
Weatherization Assistance Program Policy and Procedures Manual. SARA's management should
implement the recommended action.

Finding 2:     Purchases made did not comply with the State of New York's and Sub-
               grantee's acquisition policies and procedures - Significant Deficiency

Our review of a sample of twenty-four purchases made by SARA showed that SARA could not
demonstrate that it obtained at least three bids each on two contracts for goods and services, as
required by both the State of New York and SARA's acquisition policies and procedures.
Specifically, we noted that SARA hired and paid $28,409 to a contractor for building repairs and
maintenance services, but there was no documentation to indicate that at least three bids were
solicited, or that multiple offers were received. Also, an equipment purchase of $4,695 was
made without receiving price quotations from at least three vendors, as required.

According to the State of New York's Weatherization Assistance Program Policies and
Procedures Manual, a minimum of three written price quotations must be obtained for purchases
of $2,000 or more in aggregate, or up to $5,000 over the duration of each annual budget period.
In addition, the Manual requires that for procurement of services, the sub-grantee must maintain
a copy of the solicitation; copies of all bids; Form DHCR#26, Services Bidding Summary; and
the Subcontractor Agreement. Furthermore, the Manual requires that all equipment purchases
exceeding $2,500 be considered as capital equipment purchases, and must be approved by the
DHCR regional supervisor. Similarly, according to SARA's Fiscal Policy and Procedures
Manual, a minimum of three written price quotations is required for purchases of $1,000 or
more. The objective of these requirements is to ensure, to the maximum extent practicable, open
and free competition.

SARA's management stated that it solicited price quotations, through a certified legal
advertisement, for building repairs and maintenance services, but received an offer only from the
subcontractor to whom SARA later awarded the contract. However, SARA did not document or
maintain records of the other vendors solicited, and the results of the solicitation. Also, SARA
did not provide written justification and approval in the contract files for awarding the contracts
based on a single offer.

As a result of the condition noted above, SARA may have impeded competition, which is a
violation of the requirements of the State of New York. Also, SARA could not demonstrate that
best value was received for the goods and services purchased with Weatherization Program
funds.



                                                  7
                                                                           Attachment (continued)


Recommendations:
We recommend that SARA:

•   Maintain records of vendors solicited and/or offers received.

•   Provide written justification and approval for awarding contracts based on a single offer.

Management Comments and Auditors' Analysis
SARA's management indicated that in the future, they will ensure that more extensive
documentation is maintained to support purchases made under similar circumstances.
However, SARA's management strongly disagreed that the examples given in the Draft Audit
Report indicate a material weakness in their system. In the case of the award for building
repairs and maintenance, SARA's management stated that a total of three contractors
obtained the required information to submit a bid; however, only one bid was ultimately
received and evaluated for reasonableness. SARA's management stated that the equipment
purchase was researched on the Internet by their Program Director, but that documentation
of the other two comparable products researched was not maintained in the purchase file.

We consider SARA's management response to be adequate. Additionally, upon review of
follow-up documentation provided by SARA's management, we reclassified this finding from a
material weakness to a significant deficiency.

Finding 3:     Lack of adequate segregation of duties in Program administration –
               Significant Deficiency

SARA's Energy Services Director, who is responsible for the Weatherization Program, is heavily
involved in the subcontractors' evaluation and selection processes. The Energy Services Director
also performs pre-and-post-inspections of homes/units weatherized by the subcontractors, and
approves payments. The duties of subcontractors' evaluation, selection, pre-and-post
inspections, and payment approval being performed by an individual are incompatible because it
places that individual in a position to review, authorize, and approve subcontractors' services and
performance.

Also, SARA's Finance and Human Resource Director solely prepares, reviews, and approves the
Weatherization Program's monthly and quarterly financial reports.

According to OMB Circular A-110 Section 21 (b)(3), the sub-grantee's financial management
system shall provide effective control over and accountability for all funds, property and other
assets. Also, OMB Circular A-133, Compliance Supplement, defines control activities as the
policies and procedures that help ensure that management directives are carried out; among these
are ensuring that adequate segregation of duties are provided between performance, review, and
recordkeeping of a task.



                                                 8
                                                                            Attachment (continued)


Management oversight over the activities of the Directors was not adequate to ensure segregation
of incompatible duties. SARA's management did not review the responsibilities of these
individuals to identify and separate incompatible duties. Also, other personnel within the
departments did not have the experience necessary to review the Directors' activities. However,
the Directors could have assigned these functions to others and reviewed their work, which
makes for an efficient operation.

As a result of the condition noted above, errors that are more than inconsequential may not be
prevented or detected in a timely manner. Also, the risk of fraud, waste or abuse of
Weatherization Program funds, and inefficiency, is increased.

Recommendation:
•   We recommend that SARA's management ensure that related duties are adequately
    segregated, and that adequate oversight is provided over the activities of the Directors.

Management Comments and Auditors' Analysis
SARA's management strongly disagreed with the finding that there is a lack of adequate
segregation of duties in two identified areas of program administration.

SARA's management stated that while it is true that the Energy Services Director is involved
in the subcontractor evaluation and selection process, he does not have the ability to
subjectively determine the subcontractor selected for any specific project. Additionally,
SARA's management indicated that the Energy Services Director is not solely involved in
subcontractors' evaluation, selection, and pre-and-post inspections, as a result of additional levels
of review.

SARA's management also stated that SARA's Finance and Human Resource Director solely
prepares, reviews, and approves the Program's monthly and quarterly financial reports.
They indicated these financial reports were compiled from information generated by
Program staff other than the Finance/Human Resource Director. The Finance/Human
Resource Director generates reports from the accounting system. Although the report form
contains no signature lines, the report is reviewed by the Energy Services Director before
submittal to DHCR.

Financial reports were reviewed regularly by the Executive Director as well as the Board of
Directors on a monthly basis. They believed that the reviews performed by the Energy
Services Director, the Executive Director and Board of Directors were adequate to mitigate
any risks inherent in the financial reporting process. SARA's management further stated
that in order to avoid confusion in the future, they will ensure that each person who reviews
the reports signs and dates the report to document that review.

We agree with SARA's management response relative to the proposed future actions over their
financial reporting process. However, we do not agree with management's position regarding the
functions performed by the Energy Services Director. We still believe real or perceived conflicts


                                                 9
                                                                           Attachment (continued)


of interest are present based upon our audit observations. Additionally, in response to our Draft
Audit Report, DHCR indicated that SARA should change staff responsibilities to improve
internal controls. SARA's management should consider the implementation of the recommended
action.

Finding 4:     Adequate records were not maintained by the Sub-grantee to support
               the quarterly reports required by the Program - Significant Deficiency

SARA did not maintain supporting schedules to substantiate the full-time equivalent (FTE)
employment information reported on its Recovery Act Weatherization Program's quarterly
reports. In addition, vendor payment data reported were incorrect. For example, total
cumulative expenditures billed by a vendor for the quarter ended December 31, 2010, was
reported as $1,136.03, instead of $1,136,030.

Also, OMB 9-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, Section 4.2 states that "Sub-recipient: a) owns
sub-recipient data, b) initiates appropriate data collection and reporting procedures to ensure that
Section 1512 reporting requirements are met in a timely and effective manner, c) implements
internal control measures as appropriate to ensure accurate and complete information, d) reviews
sub-recipient information for material omissions and/or significant reporting errors, and makes
appropriate and timely corrections."

Some of the full-time equivalent employment data used for quarterly Weatherization Program
reporting was obtained from subcontractors, verbally, and was not documented elsewhere other
than on the report where the data was used. Also data provided by subcontractors was not
adequately verified for accuracy. Only one individual is responsible for preparing, reviewing,
and approving the reports, which allows for errors to be made and not be detected in a timely
manner.

As a result of the condition noted above, errors that are more than inconsequential may not be
prevented or detected. Also, misleading and/or inaccurate Program performance data may have
been reported to the State of New York and the U.S. Congress.

Recommendation:
•   We recommend that SARA ensure that data obtained from subcontractors is verified before
    being used for reporting purposes. We also recommend that the reports be reviewed for
    propriety by someone other than the preparer.

Management Comments and Auditors' Analysis
SARA's management disagreed that this finding regarding an informational report rises to
the level of a significant deficiency. SARA's management acknowledged that there was a
mistake in their reporting; attributing it to the misplacement of a decimal point.



                                                10
                                                                          Attachment (continued)


SARA's management also stated that as a result of this finding they have instituted a process
which provides for review of the quarterly Weatherization Assistance Program Subgrantee
Job Creation/Retention Report, and are implementing procedures to obtain additional
supporting documentation from all subcontractors in order to further verify FTE
information reported.

We consider SARA management's intended actions to be to be adequate.

Finding 5:     Non-interest-bearing account was maintained - Significant Deficiency

SARA obtained a $792,320 cash advance from the State of New York Recovery Act
Weatherization Program funds, but did not deposit the funds into an interest bearing account, as
required by 10 CFR 600, Federal Financial Assistance Regulation. This regulation requires that
recipients maintain advance payments of Federal funds in interest-bearing accounts and remit,
annually, the interest earned to the contracting officer for return to the Department of Treasury.

SARA's management was unaware of the requirement to establish and maintain an interest-
bearing account for funds advanced from the Recovery Act Weatherization Program. Also, the
State of New York Weatherization Assistance Program Policies and Procedures Manual does not
require advances to be put into an interest-bearing account. However, the State of New York
Weatherization Assistance Program Policies and Procedures Manual does require interest earned
on such funds to be returned to the Treasury.

As a result of the condition noted above, the Federal Government did not receive income from
interest that could have been generated on advanced funds.

Recommendation:
•   We recommend that SARA establish and maintain an interest-bearing account for cash
    advances received from the Weatherization Program.

Management Comments and Auditors' Analysis
SARA's management strongly disagreed that that the example provided constitutes a
significant deficiency in their system of controls. However, SARA's management
acknowledged that the funds were not in interest-bearing accounts as required by Federal
Regulation.

SARA's management also stated that current Federal Deposit Insurance Corporation
(FDIC) insurance protection extends to an unlimited amount for balances in non-interest
bearing accounts, while protection provided for balances in interest bearing accounts is
limited to $250,000, which is below the average balance maintained in their account. The
FDIC regulation cited by SARA became effective on December 31, 2010. Section 330.15 of the
FDIC's regulation (12 C.F.R. 330.15) that governs the insurance coverage of public unit accounts
states that "For the period from December 31, 2010 through December 31, 2012, the Dodd-Frank
Wall Street Reform and Consumer Protection Act (Dodd-Frank Act) provides separate and


                                                11
                                                                           Attachment (continued)


unlimited deposit insurance coverage for accounts that meet the definition of a "noninterest-
bearing transaction account." SARA had the advanced funds prior to the Dodd-Frank Act's
enactment. If SARA's management believes that compliance with the Federal Regulation
requiring that advanced funds be deposited in an interest-bearing account will expose the funds
to risk of loss, they should have requested a waiver from the State of New York.

In response to our Draft Audit Report, DHCR concurred with the finding and stated they will
revise their Policies and Procedures Manual to require that advances of federal funds must be
maintained in interest bearing accounts, consistent with federal rules. SARA's management
should consider the implementation of the recommended action or request a waiver from the
State.

Finding 6:    Cash advance received for the Recovery Act Weatherization Program was
not properly recorded in the accounting system - Advisory Comment

SARA received a cash advance of $792,320 from the State of New York, Division of Housing
and Community Renewal (DHCR), under the Recovery Act Weatherization Program, and did not
properly record and account for the funds in its general ledger.

According to OMB Circular A-110 Section 21 (b), the sub-grantee's financial management
system shall provide accurate, current and complete disclosure of the financial results of each
Federally-sponsored project or program and records that identify adequately the source and
application of funds.

A SARA official stated that the agency was not certain of how to properly record the cash
advance, and consulted with their external auditors. The SARA official stated that the auditors
advised that a journal entry should be made at the end of each fiscal year, and then reversed at
the beginning of each subsequent fiscal year. This does not reflect proper accounting for the
funds, as the reversal entry at the beginning of each subsequent fiscal year eliminates the
existence of the funds from the accounting system.

As a result of the condition noted above, Weatherization Program funds not recorded in the sub-
grantee's accounting system are vulnerable to waste, abuse or fraud. In addition, the sub-
grantee's financial records would not accurately reflect the Weatherization Program's financial
results.

Recommendation:
•   We recommend that SARA ensure completeness of its financial information, and account for
    the initial cash advance in its accounting system to properly reflect the Weatherization
    Program's financial results.

Management Comments and Auditors' Analysis
SARA's management strongly disagreed with the finding, and stated that the Draft Audit Report
reflects that there was some misunderstanding concerning its accounting systems. They also stated

                                                12
                                                                              Attachment (continued)


that the Recovery Act advance funds they received were deposited into a separate account as directed
by the State of New York Division of Housing and Community Renewal. They further stated that in
order to avoid any possible confusion in the future, they will be sure that both cash on hand and the
corresponding deferred revenue are reflected in the general ledger at all times.

SARA's management response to this finding indicates that they are addressing the recommend action.
Additionally, as a result of follow-up documentation provided by SARA's management, we
reclassified this finding from a material weakness to an advisory comment. We agree with their
intended action of ensuring that both cash on hand and the corresponding deferred revenue associated
with the advanced funds, are reflected in the general ledger at all times.

Finding 7:     Vehicle and equipment usage, maintenance, and repair records were not
               maintained – Advisory Comment

Although SARA had purchased two vehicles and two pieces of equipment with over $100,000 of
Recovery Act Weatherization Program funds, the agency did not maintain usage, maintenance,
or repair records for these items as required. In accordance with Federal financial assistance
regulations, SARA should have a control system which meets property management standards,
for vehicles and equipment acquired with Federal funds. Such a control system should ensure
adequate safeguards to prevent loss, damage, or theft of the vehicle or equipment; and ensure
that adequate maintenance procedures are implemented to keep the vehicle or equipment in good
condition. Also, the State of New York's Weatherization Assistance Program Policies and
Procedures Manual requires that a mileage log (Form DHCR #34 or comparable) be maintained
by SARA for each vehicle purchased with Weatherization Program funds or income.

SARA's management stated that equipment usage and vehicle repairs and maintenance logs were
not provided to employees because they were not aware that such records are required under the
Program. SARA's management also stated that its employees were not aware of the requirement
to maintain usage logs for vehicle, which were made available on each vehicle, because they
were not trained on how to maintain the vehicle usage logs.

As a result of the condition noted above, SARA could not demonstrate that the vehicles and
equipment were used primarily for official purposes. This may have resulted in abuse or misuse
of federal funds. Also, SARA was not in compliance with the terms and conditions of its
contract with DHCR and applicable property management standards.

Recommendation:
•   We recommend that SARA provide vehicle and equipment usage and maintenance logs to its
    employees, and provide training that would ensure that the employees become aware of the
    requirement to maintain usage logs for vehicle and equipment purchased with Weatherization
    Program funds.




                                                  13
                                                                    Attachment (continued)


Management Comments and Auditors' Analysis
SARA's management concurred with the finding and recommendation. SARA's management
stated that they have instituted a system which provides for the tracking of vehicle
maintenance and the use of mileage logs for all agency vehicles. Also, employees have been
trained in the proper usage of these logs which are reviewed regularly by program
management.

We consider SARA management's response to be adequate.




                                           14
                                      Attachment (continued)

SECTION VI – GRANTEE'S RESPONSE (FULL TEXT)




                    15
     Attachment (continued)




16
     Attachment (continued)




17
     Attachment (continued)




18
     Attachment (continued)




19
     Attachment (continued)




20
     Attachment (continued)




21
     Attachment (continued)




22
     Attachment (continued)




23
     Attachment (continued)




24
     Attachment (continued)




25
     Attachment (continued)




26
     Attachment (continued)




27
     Attachment (continued)




28
                                                                 IG Report No. OAS-RA-12-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
